Appendix A

Original Eleventh Circuit opinion affirming in part, vacating in part, and
remanding for further proceedings: United States v. Jemone Walker, 793 F. App’x
865 (11th Cir. Oct. 30, 2019) (No. 19-10792)

United States v. Walker, 793 Fed.Appx. 865 (2019)

793 Fed.Appx. 865
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.

Procedural Posture(s): Appellate Review; Post-Trial
Hearing Motion; Sentencing or Penalty Phase Motion or
Objection.
West Headnotes (4)
[1]

UNITED STATES of America, Plaintiff - Appellee,
v.
Jemone Lawrence WALKER, Defendant - Appellant.

statute

was

not

[2]

Violation of other rights or

Weapons

Miscellaneous particular issues

18 U.S.C.A. §

Commerce

Weapons and explosives

Weapons
provisions

Violation of other rights or

Weapons

Miscellaneous particular issues

German-made firearm possessed by defendant
had traveled in interstate commerce, and thus,
since firearm had at least minimal nexus
to interstate commerce, statute criminalizing
possession of a firearm by a felon was not
unconstitutional as applied to defendant; record
indicated that firearm had been made in
Germany, based on stamp on barrel and two
quality-control stamps on frame, so firearm had
manifestly traveled through interstate commerce.
U.S. Const. art. 1, § 8, cl. 3; U.S. Const. Amend.

facially

[2] felon-in-possession statute was not unconstitutional as
applied to defendant;
[3] defendant's prior robbery conviction was a predicate crime
of violence within the meaning of the Armed Career Criminal
Act (ACCA); but

5;

18 U.S.C.A. § 922(g)(1).

1 Cases that cite this headnote

[4] district court's failure to permit defendant to allocute at
sentencing warranted vacatur of his sentence.
[3]
Vacated and remanded.

Weapons
provisions

cl. 3; U.S. Const. Amend. 5;
922(g)(1).

Holdings: The Court of Appeals held that:
[1] felon-in-possession
unconstitutional;

Weapons and explosives

Statute criminalizing possession of a firearm
by a felon included express jurisdictional
requirement, and thus was not facially
unconstitutional; statute limited criminalization
to those guns with explicit connection to
interstate commerce, and this limitation imposed
by Congress indicated intent to assert its full
Commerce Clause power. U.S. Const. art. 1, § 8,

No. 19-10792
|
Non-Argument Calendar
|
(October 30, 2019)
Synopsis
Background: Defendant was convicted in the United States
District Court for the Middle District of Florida, No. 3:18cr-00045-BJD-JRK-1, Brian Davis, J., of being a felon in
possession of a firearm, was designated an armed career
criminal pursuant to sentencing guidelines, and was sentenced
to 188 months' imprisonment, followed by three years of
supervised release. Defendant appealed.

Commerce

Sentencing and Punishment
offenses

Particular

Defendant's prior convictions for robbery
under Florida law constituted violent predicate

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Walker, 793 Fed.Appx. 865 (2019)

felonies within the meaning of Armed Career
Criminal Act (ACCA), and thus designation of
defendant as an armed career criminal under
sentencing guidelines was warranted, following
his conviction as a felon in possession of
a firearm; definition of prior violent felony
set forth in ACCA was limited to those in
which use of physical force was an element of
the offense, and robbery offense under Florida
law required a criminal to overcome victim's
resistance, necessitating use of physical force.
18 U.S.C.A. § 922(g)(1);
4B1.4.

[4]

Criminal Law
general

U.S.S.G. §

Sentencing proceedings in

District court's failure to address defendant
personally to inquire as to whether he wished to
speak in allocution at sentencing following his
conviction for possessing a firearm as a felon
constituted plain error, warranting vacatur of
defendant's sentence and remand; rule required
that defendant be permitted to allocute at
sentencing, and defendant was prejudiced by
district court's failure to comply with this
rule, since he was sentenced to 188 months'
imprisonment, which was eight months above
statutory minimum sentence.
922(g)(1); Fed. R. Crim. P. 32.

18 U.S.C.A. §

Attorneys and Law Firms
*866 Sara C. Sweeney, U.S. Attorney's Office, Orlando,
FL, Dawn A. Tiffin, U.S. Attorney Service - Middle District
of Florida, U.S. Attorney's Office, Tampa, FL, for PlaintiffAppellee
Rosemary Cakmis, Donna Lee Elm, Conrad Benjamin Kahn,
Federal Public Defender's Office, Orlando, FL, Susan Good
Yazgi, Federal Public Defender's Office, Jacksonville, FL, for
Defendant-Appellant
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 3:18-cr-00045-BJDJRK-1

Before TJOFLAT, WILSON, and JORDAN, Circuit Judges.
Opinion
PER CURIAM:
*867 Jemone Lawrence Walker appeals his conviction and
sentence for being a felon in possession of a firearm, in
violation of
18 U.S.C. §§ 922(g)(1) and
924(e). He
first contends that his conviction should be vacated because
§ 922(g) is unconstitutional, as it does not require the
government to prove that the firearm he possessed had a
substantial effect on interstate commerce. Second, he argues
that the district court improperly concluded that he was an
armed career criminal under the Armed Career Criminal
Act (ACCA) because the elements clause of the ACCA is
unconstitutional and, regardless, a conviction under Florida’s
robbery statute does not constitute a “violent felony” under
the elements clause. And third, he asserts that the district court
deprived him of an opportunity to allocute at sentencing, and
therefore he is entitled to a new sentencing hearing.
Our precedent bars Walker’s first argument, as we have
repeatedly and unreservedly rejected arguments that
§
922(g) exceeds Congress’s Commerce Clause authority. We
also reject Walker’s argument that the elements clause is
unconstitutional. And—as both our court and the Supreme
Court have held—we conclude that a Florida conviction for
armed robbery constitutes a violent felony under the elements
clause of the ACCA. However, we agree with Walker that the
district court erred when it failed to address him personally
and provide him with an opportunity to allocute. So, although
we affirm his conviction, we vacate his sentence and remand
for resentencing so that Walker may allocute.

BACKGROUND
Walker was charged in a one-count indictment. Before his
trial, Walker moved to dismiss the indictment, arguing that
§ 922(g) was unconstitutional both facially and as applied
to him because that section does not require the government
to prove that a firearm had a substantial effect on interstate
commerce. Citing our precedent, the district court denied the
motion.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Walker, 793 Fed.Appx. 865 (2019)

The case went to trial. There, the government called Special
Agent John Prowley of the Bureau of Alcohol, Tobacco, and
Firearms to present evidence that Walker was in possession
of a firearm after having been convicted of a felony. Agent
Prowley testified that he had received special training on how
to examine firearms and determine where they were made
and how they were made. He testified that he examined the
firearm in question and determined that it was a Rohm Model
RG10, which is a German-made firearm. He further stated
that he was able to determine that the firearm was made in
Germany based on the “made in Germany” stamp on the
barrel and two quality-control stamps on the frame of the
firearm. He also said that the firearm was likely made before
1968 since the Gun Control Act banned the importation of
that firearm.
After the close of evidence, Walker moved for a judgment of
acquittal, arguing that the government presented insufficient
evidence that he possessed a firearm that affected foreign
commerce in any way. The court denied the motion. And
it denied another motion for judgment of acquittal and to
dismiss the indictment. A jury then found Walker guilty.
Citing multiple prior felonies, Probation designated Walker
as an armed career criminal under
U.S.S.G. § 4B1.4.
Probation listed the following convictions to support this
enhancement: armed robbery and attempted *868 armed
robbery committed on June 6, 2004, unarmed robbery
committed on January 18, 2011, and attempted robbery
committed on February 14, 2011. Walker objected to this
enhancement, arguing that Florida robbery—armed or not
—does not qualify as a “violent felony” under the ACCA’s
elements clause. And he noted that the issues he raised were
pending before the Supreme Court. See Stokeling v. United
States, 584 U.S. ––––, 138 S. Ct. 1438, 200 L.Ed.2d 716
(2018) (granting petition for a writ of certiorari).
Before his sentencing, the Supreme Court issued a decision
in
Stokeling v. United States, 586 U.S. ––––, 139 S.
Ct. 544, 202 L.Ed.2d 512 (2019) (holding that Florida
robbery qualifies as a violent felony under the elements
clause of the ACCA). Walker then filed a supplemental
memorandum in support of his objection to the presentence
report’s (PSR) classification of him as an armed career
criminal. He argued that even after Stokeling he was still not
an armed career criminal because the elements clause itself
was unconstitutionally vague under the Supreme Court’s
reasoning in

Johnson v. United States, 576 U.S. ––––,

135 S. Ct. 2551, 2563, 192 L.Ed.2d 569 (2015). He further
argued that even if the elements clause of the ACCA passed
constitutional muster, he was still not an armed career
criminal, because robbery by “putting in fear” did not satisfy
the elements clause, as it did not require the “threatened use”
of physical force. And even though we said in
United
States v. Lockley, 632 F.3d 1238, 1244 (11th Cir. 2011), that
“putting in fear” qualified under the elements clause, Walker
argued that Stokeling compelled a different result. The district
court overruled Walker’s objection, concluding that Stokeling
and our precedent required as such.
After the district court addressed the parties’ objections to the
PSR and the parties made their arguments in support of their
proposed sentences, the district court asked if there was any
reason why the sentence should not be pronounced. Walker’s
attorney responded, “no.” However, immediately thereafter,
the court stated, “I’m sorry. I just want to make sure. Does Mr.
Walker want to make a statement to the Court?” In response,
Walker’s attorney stated, “[h]e does not.” The district court
stated, “[v]ery good,” and sentenced Walker to 188 months’
imprisonment, followed by 3 years of supervised release.
Walker then objected to “the sentence and the manner in
which it was imposed,” which the district court overruled.

DISCUSSION
I.
Generally, we review the constitutionality of a statute de novo,
as it is a question of law. United States v. Wright, 607 F.3d
708, 715 (11th Cir. 2010). But under our prior-precedent rule,
we are bound to follow a prior binding precedent “unless and
until it is overruled by this court en banc or by the Supreme
Court.” United States v. Brown, 342 F.3d 1245, 1246 (11th
Cir. 2003).
[1] Walker believes that
§ 922(g) is facially
unconstitutional because it does not require the government
to prove that the firearm he possessed had a substantial
effect on interstate commerce. Yet “[w]e have repeatedly held
that
Section 922(g)(1) is not a facially unconstitutional
exercise of Congress’s power under the Commerce Clause
because it contains an express jurisdictional requirement.”
United States v. Jordan, 635 F.3d 1181, 1189 (11th Cir. 2011);
see also United States v. Scott, 263 F.3d 1270, 1273–74 (11th

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Walker, 793 Fed.Appx. 865 (2019)

Cir. 2001) (concluding that the jurisdictional element of the

1624, 131 L.Ed.2d 626 (1995) does not change our analysis.

statute immunizes

See

attack);

§ 922(g)(1) from facial constitutional

*869 United States v. McAllister, 77 F.3d

387, 390 (11th Cir. 1996) (holding that
§ 922(g)(1) is
constitutional because of its jurisdictional element). Through
the statute, Congress specifically prohibits any person “who
has been convicted in any court of, a crime punishable by
imprisonment for a term exceeding one year ... to ... possess
in or affecting commerce, any firearm or ammunition.”
18 U.S.C. § 922(g)(1) (emphasis added). By including the
phrase words “in or affecting commerce,” Congress indicated
its “intent to assert its full Commerce Clause power.”
Wright, 607 F.3d at 715. Therefore, the express jurisdiction
requirement in

§ 922(g) defeats Walker’s facial challenge

to the constitutionality of
§ 922(g)(1) because it is a
regulation of guns with an explicit connection to interstate
commerce. See
McAllister, 77 F.3d at 390. Undoubtedly,
“[w]hen viewed in the aggregate, a law prohibiting the
possession of a gun by a felon stems the flow of guns in
interstate commerce to criminals.”

Id.

[2] Alternatively, Walker argues that
§ 922(g) is
unconstitutional as applied because it does not require
the government to prove that the firearm he possessed
had a substantial effect on interstate commerce. We have
categorically rejected similar arguments and do so again
today. See Jordan, 635 F.3d at 1189-90; Scott, 263 F.3d at
1274;
McAllister, 77 F.3d at 390. There is no requirement
for an individualized showing of a “substantial” effect on
interstate commerce.

McAllister, 77 F.3d at 390. Instead,

“ § 922(g) only requires that the government prove some
minimal nexus to interstate commerce,” and the government
may meet its burden by showing that the particular firearm
“traveled in interstate commerce.” Wright, 607 F.3d at 715
(internal quotations marks omitted).
The government met that burden here. Special Agent Prowley
presented evidence that Walker was in possession of a
Rohm Model RG10, a German-made firearm. The firearm
was made in Germany, based on the stamp on its barrel
and two quality-control stamps on its frame. It manifestly
traveled through interstate commerce and therefore satisfied
the minimal nexus requirement. And contrary to Walker’s
arguments,

United States v. Lopez, 514 U.S. 549, 115 S.Ct.

McAllister, 77 F.3d at 389–90 (rejecting appellant’s

argument that

Lopez implicates

§ 922(g)).

In sum, we conclude that Walker’s challenges to the
constitutionality of
§ 922(g) (both facially and as applied)
lack merit and thus do not establish reversible error. And
as the government presented evidence that the firearm
Walker possessed traveled in interstate commerce, we further
conclude that the minimal-nexus requirement was satisfied in
this case. Accordingly, we affirm in this respect.

II.
We review de novo whether a prior conviction is a “violent
felony” within the meaning of the ACCA. United States v.
Howard, 742 F.3d 1334, 1341 (11th Cir. 2014). But again, our
prior-precedent rule binds us to our past decisions unless and
until they are overruled by the Supreme Court or this court
sitting en banc. Brown, 342 F.3d at 1246.
[3] Walker argues that he was erroneously sentenced as an
armed career criminal under the ACCA. His view is that
the elements clause is unconstitutionally vague for the same
reasons the Supreme Court has held the residual clause to be
invalid. We disagree.
The Supreme Court struck down the ACCA’s residual clause
as unconstitutionally vague in
Johnson v. United States,
135 S. Ct. at 2563. It held that “the indeterminacy of the
wide-ranging inquiry required *870 by the residual clause
both denie[d] fair notice to defendants and invite[d] arbitrary
enforcement by judges” and therefore denied defendants
sentenced pursuant to the residual clause their due-process
rights. Id. at 2557. But the Court noted that its decision did
not “call into question [the] application of the [ACCA] to the
four enumerated offenses, or the remainder of the [ACCA]’s
definition of a violent felony,” including the elements clause.
Id. at 2563. So, the holding of
Walker’s claim.

Johnson does not support

Even so, Walker insists that we use
Johnson’s logic to
invalidate the elements clause. He says that Stokeling compels
this result as it demonstrates that the elements clause is
“unworkable.” We do not agree. In Stokeling, the Supreme

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Walker, 793 Fed.Appx. 865 (2019)

Court reasoned that because a robbery offense that requires a
criminal to overcome the victim’s resistance necessitates the
use of physical force, it constitutes a predicate violent felony
under the ACCA’s elements clause. See
Stokeling 139 S.
Ct. at 549–54. Because Florida robbery requires physical
force, the Court held that it categorically qualifies as a violent
felony under the elements clause.
Id. at 555. The decision
is Stokeling was thus premised on the elements clause. And
we refuse to read a case that finds that Florida robbery
qualifies as a violent felony under the elements clause as also
bringing the elements clause’s constitutionality into doubt.
We also reject Walker’s contention that, even after Stokeling,
Florida robbery should not qualify as a violent felony. But
even if Stokeling did not mandate this outcome, our own
precedent would foreclose this argument. See
Lockley,
632 F.3d at 1241–43, 1245 (finding that a robbery conviction
under
Fla. Stat. § 812.13(1) is categorically a crime
of violence under § 4B1.2(a)’s enumerated-offenses and
elements clauses);

United States v. Fritts, 841 F.3d 937,

940–943 (11th Cir. 2016) (applying
that a Florida robbery conviction under

Lockley to hold
Fla. Stat. § 812.13

categorically qualifies as a violent felony under the ACCA). 1
1

Note that we have repeatedly read the definition
of a violent felony under § 924(e) of the ACCA
as virtually identical to the definition of a crime
of violence under
U.S.S.G. § 4B1.2.
United
States v. Archer, 531 F.3d 1347, 1352 (11th
Cir. 2008). Because of this strong similarity, we
consider cases interpreting one as authority in cases
interpreting the other. See
United States v.
Alexander, 609 F.3d 1250, 1253 (11th Cir. 2010).

Walker is aware of our precedent but contends that
Lockley should not be binding because it failed to
consider then-existing Supreme Court precedent in Leocal
v. Ashcroft, 543 U.S. 1, 125 S.Ct. 377, 160 L.Ed.2d 271
(2004) (holding that petitioner’s conviction under
Fla.
Stat. § 316.193(3)(c)(2) for driving under the influence of
alcohol was not a crime of violence under
16). Moreover, he believes both
were abrogated by

18 U.S.C. §

Lockley and

Fritts

Elonis v. United States, 575 U.S. 723,

135 S. Ct. 2001, 192 L.Ed.2d 1 (2015). He is wrong on both
counts. Leocal does not undermine
Lockley because
“[u]nder this Court’s prior panel precedent rule, there is never
an exception carved out for overlooked or misinterpreted
Supreme Court precedent.”
for

Fritts, 841 F.3d at 942. As

Elonis, nothing in that case abrogates our decisions in

Lockley or
Fritts. In
Elonis, the Supreme Court
determined whether a federal threat statute required proof that
the defendant was “aware of the threatening nature of the
communication, and—if not—whether the First Amendment
requires such a showing.”

Elonis, 135 S. Ct. at 2004. It did

not address the ACCA. See generally

id.

Accordingly, the district court properly classified Walker as
an armed career criminal and we affirm in that respect.

*871 III.
We review the legality of a criminal sentence de novo.
United States v. Prouty, 303 F.3d 1249, 1251 (11th Cir.
2002). The right of allocution requires a sentencing court to
“address the defendant personally in order to permit [him] to
speak or present any information to mitigate the sentence.”
Fed. R. Crim. P. 32(i)(4)(A)(ii). The right to allocution is
“firmly entrenched in our criminal jurisprudence.” United
States v. Machado, 886 F.3d 1070, 1087 (11th Cir. 2018). “It
provides a defendant the opportunity to plead personally with
the district court for leniency in sentencing and to state any
potentially mitigating factors for consideration.” Id.
“[A] district court’s failure to afford a defendant the right
of allocution will be reviewed only for plain error where
the defendant did not timely object.”
Prouty, 303 F.3d at
1251. To properly object, the defendant must do so in a way
that is “sufficient to apprise the trial court and the opposing
party of the particular grounds upon which appellate relief
will later be sought[,]” and “[t]he objection must be raised in
such clear and simple language that the trial court may not
misunderstand it.” United States v. Straub, 508 F.3d 1003,
1011 (11th Cir. 2007) (internal quotation mark omitted).
Under the plain error rule, we reverse only if “there is: (1)
error, (2) that is plain, and (3) that affects substantial rights,
and if (4) the error seriously affects the fairness, integrity, or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Walker, 793 Fed.Appx. 865 (2019)

upon which appellate relief would later be sought—that he
was deprived of his opportunity to allocute.

public reputation of judicial proceedings.”
United States
v. Doyle, 857 F.3d 1115, 1118 (11th Cir. 2017) (internal
quotation marks omitted). An error is some “deviation from

Substantively, and as the government concedes, the district
court committed plain error by not addressing Walker
personally to inquire if he would like to speak in allocution.
This error was plain in light of our prior precedent and
Federal Rule of Criminal Procedure Rule 32. See Machado,

a legal rule.”
Puckett v. United States, 556 U.S. 129, 135,
129 S.Ct. 1423, 173 L.Ed.2d 266 (2009) (alteration accepted).
That error is plain when the legal rule is already clearly
established.
United States v. Hesser, 800 F.3d 1310, 1325
(11th Cir. 2015) (per curiam). A defendant who has not been
given his allocution right will generally receive a presumption
of prejudice for the third prong of plain error review, even
if the defendant received a sentence at the low end of his
guideline range, because of the possibility of variances below

886 F.3d at 1087;
Perez, 661 F.3d at 584. *872 Walker
was prejudiced because he was sentenced to 188 months’
imprisonment, which was 8 months above the statutory
minimum sentence. And because the third requirement is
satisfied, the fourth is automatically satisfied. See
Doyle,
857 F.3d at 1120–21. Accordingly, we vacate Walker’s
sentence and remand so that Walker may be afforded his right
of allocution.

the guideline range.
Doyle, 857 F.3d at 1120–21. We
have held that an allocution error automatically satisfies the
fourth prong if the third requirement is met because of the
central role allocution plays in sentencing. See

id. at 1118;

United States v. Perez, 661 F.3d 568, 586 (11th Cir. 2011).

CONCLUSION

We have previously found that a district court committed
plain error when it directed the question of whether the
defendant would be allocuting to the defendant’s attorney
rather than to the defendant. See, e.g., Machado, 886 F.3d at
1087 (reasoning that the district court’s failure to address the
defendant personally about his right to allocution constituted

In summary, we reject Walker’s argument that
§ 922(g)
exceeds Congress’s Commerce Clause authority and reject
Walker’s challenges to his designation as an armed career
criminal. But we find that the district court plainly erred
when it failed to address him personally and provide
him with an opportunity to allocute. Therefore, we affirm
Walker’s conviction but vacate his sentence and remand for
resentencing consistent with this opinion.

a plain error);
Perez, 661 F.3d at 584 (holding that the
district court plainly erred by directing the question, “will the
defendant be allocuting?” to the defendant’s attorney, even
though the defendant’s attorney conferred with the defendant
(alterations accepted)).

AFFIRMED IN PART, VACATED IN PART, AND
REMANDED FOR FURTHER PROCEEDINGS.

[4] Although he contends that he objected to the manner in
which the district court imposed his sentence, such objection
was insufficient to apprise the court of the particular grounds

End of Document

All Citations
793 Fed.Appx. 865

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Appendix B

Eleventh Circuit opinion affirming district court judgment entered on remand:
United States v. Jemone Walker, 835 F. App’x 524 (11th Cir. Nov. 24, 2020) (No. 2010479)

United States v. Walker, 835 Fed.Appx. 524 (2020)

caselaw providing defendant's argument was
decided while defendant's prior appeal was
pending before the Court of Appeals, so
defendant had the opportunity to raise the

835 Fed.Appx. 524
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Jemone Lawrence WALKER, Defendant-Appellant.
No. 20-10479
|
Non-Argument Calendar
|
(November 24, 2020)
Synopsis
Background: Defendant was convicted in the United States
District Court for the Middle District of Florida, No. 3:18cr-00045-BJD-JRK-1, Brian Davis, J., 2020 WL 1277629,
of being a felon in possession of a firearm, was designated
an armed career criminal pursuant to sentencing guidelines,
and was sentenced to 180 months' imprisonment. Defendant
appealed.

argument in his prior appeal.
922(g)(1),

18 U.S.C.A. §§

924(e).

Attorneys and Law Firms
Leigha Amy Simonton, Assistant U.S. Attorney, U.S.
Attorney's Office, Northern District of Texas, Dallas, TX, for
Plaintiff - Appellee
Brandon Elliott Beck, Federal Public Defender's Office,
Northern District of Texas, Lubbock, TX, Jaidee Serrano,
Assistant Federal Public Defender, Federal Public Defender's
Office, Northern District of Texas, Fort Worth, TX, for
Defendant - Appellant
Octavio Fernandez, Jr., Pro Se
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 3:18-cr-00045-BJDJRK-1
Before WILSON, MARTIN and BRANCH, Circuit Judges.
Opinion

[Holding:] The Court of Appeals held that defendant's
argument that indictment was deficient under recent caselaw
was precluded by the law of the case.

*525 Jemone Walker appeals his 180-month sentence for
being a felon in possession of a firearm, in violation of
18 U.S.C. §§ 922(g)(1) and
924(e). He argues that the
district court lacked jurisdiction to hear his case because his

Affirmed.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.
West Headnotes (1)
[1]

PER CURIAM:

Criminal Law

indictment was deficient under Rehaif v. United States, –––
U.S. ––––, 139 S. Ct. 2191, 204 L.Ed.2d 594 (2019). The
government argues that Walker's argument is barred under the
law of the case doctrine because he failed to raise it during
his first appeal. 1

Subsequent Appeals

Following imposition of 180-month prison
sentence for being a felon in possession of a
firearm, defendant's argument that indictment
was deficient under recent caselaw was
precluded by the law of the case; the recent

1

Walker filed his first appeal in 2019, arguing that
he was erroneously sentenced under the Armed
Career Criminal Act (ACCA), he was sentenced
without an opportunity to allocute, and the felonin-possession statute was unconstitutional. We

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Walker, 835 Fed.Appx. 524 (2020)

affirmed his challenges to the ACCA and the
constitutionality of the felon-in-possession statute
but remanded to the district court to give him an
opportunity to allocute—which it did.
We review de novo the application of the law of the case
doctrine. See
United States v. Bobo, 419 F.3d 1264,
1267 (11th Cir. 2005). “The district court's subject-matter
jurisdiction is a question of law subject to de novo review.”
United States v. Giraldo-Prado, 150 F.3d 1328, 1329 (11th
Cir. 1998) (per curiam) (emphasis removed). Issues or claims
not clearly raised by a party on appeal are considered
abandoned.
United States v. Jernigan, 341 F.3d 1273,
1283 n.8 (11th Cir. 2003). However, “parties may not waive
a jurisdictional defect.” United States v. DiFalco, 837 F.3d
1207, 1215 (11th Cir. 2016).
The law of the case doctrine directs that “previously decided”
issues—findings of fact and conclusions of law made by
an appellate court—are generally binding in subsequent
proceedings in the same case.
Luckey v. Miller, 929 F.2d
618, 621 (11th Cir. 1991). The doctrine “encompass[es] issues
decided by necessary implication as well as those decided
explicitly.”
Id. However, the doctrine does not prevent us
from considering “matters that could have been, but were not,
resolved in earlier proceedings.” Id. at 621–22 (concluding
that this court's summary denial of a petition for rehearing
en banc did not trigger the doctrine because no inference
could be made regarding its opinion of the merits of the case,
notwithstanding a dissenting opinion). The doctrine is a rule
of judicial practice and, as such, is not jurisdictional in nature.
United States v. Anderson, 772 F.3d 662, 668 (11th Cir.
2014).
“[A] legal decision made at one stage of the litigation,
unchallenged in a subsequent appeal when the opportunity
existed, becomes the law of the case for future stages of the
same litigation.”

United States v. Escobar-Urrego, 110

the records from the trial and sentencing of the defendant and
his codefendant). Under those circumstances, we determined
that it was not appropriate to allow the defendant “two bites
at the appellate apple.”

Id. at 1482.

When the Supreme Court overturns binding precedent of this
court after the appellant has filed his initial brief, we permit
the appellant “to raise in a timely fashion thereafter an issue
or theory based on that new decision while his direct appeal
is still pending in this [c]ourt.”
United States v. Durham,
795 F.3d 1329, 1330–31 (11th Cir. 2015) (en banc).
*526
Section 922(g)(1) states: “It shall be unlawful for
any person ... who has been convicted in any court of, a
crime punishable by imprisonment for a term exceeding one
year ... to ... possess in or affecting commerce, any firearm or
ammunition.”

18 U.S.C. § 922(g)(1).

Section 924(a)(2)

states that “[w]hoever knowingly violates [ § 922(g)] shall
be fined as provided in this title, imprisoned not more than 10
years, or both.”

Section 924(e)(1) states: “[A] person who

violates
section 922(g) of this title and has three previous
convictions ... for a violent felony or a serious drug offense,
or both ... shall be fined under this title and imprisoned not
less than fifteen years.”

18 U.S.C. § 924(e)(1).

In
Rehaif, which was decided on June 21, 2019, the
Supreme Court clarified that, in prosecuting an individual
under
18 U.S.C. § 922(g) and
§ 924(a)(2), the
government “must prove both that the defendant knew
he possessed a firearm and that he knew he belonged to
the relevant category of persons barred from possessing a
firearm.”

139 S. Ct. at 2200.

An indictment sufficiently alleges a crime and therefore
confers jurisdiction on the district court if the indictment
“track[s] the statutory language and stat[es] approximately

F.3d 1556, 1560 (11th Cir. 1997). In
United States v.
Fiallo-Jacome, we determined that the defendant had waived
his right to raise a number of alleged trial errors in his second
direct appeal that followed his resentencing where he could

the time and place of an alleged crime.”

have raised each of those errors in first direct appeal.
874
F.2d 1479, 1480–83 (11th Cir. 1989) (noting that “all of
the factual predicates” for the defendant's arguments in his
second appeal “were entirely or largely available” based on

felon status in an indictment under

United States v.

Moore, 954 F.3d 1322, 1332 (11th Cir. 2020). In
Moore,
we held that failure to allege that the defendants knew of their
18 U.S.C. § 922(g)

that did not include § 924(a)(2) did not deprive the district
court of jurisdiction, even though it was defective based on

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Walker, 835 Fed.Appx. 524 (2020)

Rehaif, because the indictment met the “not demanding”
standard for alleging a crime set forth above.
Id. at 1332–
37; see also United States v. Bates, 960 F.3d 1278, 1284,
1295 (11th Cir. 2020) (addressing a
to a conviction under

§ 922(g)(1) and

noting Moore’s holding that a
indictment is non-jurisdictional).

Rehaif challenge
§ 924(e) and

Rehaif-based defect in an

Because
Rehaif was decided while Walker's prior appeal
was pending in this court, Walker had the opportunity to
raise his
Rehaif claim in his prior appeal. Therefore, his
argument is precluded by the law of the case. Further, while
End of Document

he contends that the issue is jurisdictional and therefore not
subject to waiver, our decision in

Moore forecloses this

argument. See
United States v. Romo-Villalobos, 674 F.3d
1246, 1251 (11th Cir. 2012) (“Under the prior precedent rule,
we are bound to follow a prior binding precedent unless and
until it is overruled by this court en banc or by the Supreme
Court.”). Therefore, we affirm the district court.
AFFIRMED.
All Citations
835 Fed.Appx. 524

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Appendix C

Indictment

Case 3:18-cr-00045-BJD-JRK Document 1 Filed 03/07/18 Page 1 of 4 PageID 1

Case 3:18-cr-00045-BJD-JRK Document 1 Filed 03/07/18 Page 2 of 4 PageID 2

Case 3:18-cr-00045-BJD-JRK Document 1 Filed 03/07/18 Page 3 of 4 PageID 3

Case 3:18-cr-00045-BJD-JRK Document 1 Filed 03/07/18 Page 4 of 4 PageID 4

Appendix D

Jury Instruction

Case 3:18-cr-00045-BJD-JRK Document 96 Filed 04/14/19 Page 75 of 97 PageID 772

VOLUME II- 75

USA v WALKER

You have been permitted to take notes during the

1
2

trial.

Most of you, perhaps all of you, have taken advantage

3

of that opportunity.
You must use your -- you must use your notes only as

4
5

a memory aid during deliberations.

6

notes priority over your independent recollection of the

7

evidence, and you must not allow yourself to be unduly

8

influenced by the notes of other jurors.

9

You must not give your

I emphasize that notes are not entitled to any

10

greater weight than your memories or impressions about the

11

testimony.

12

It is a federal crime for anyone who has been

13

convicted of a felony offense to possess a firearm in and

14

affecting foreign commerce.

15

The defendant can be found guilty of this crime only

16

if all the following facts are proved beyond a reasonable

17

doubt.

18

Number one, the defendant knowingly possessed a

19

firearm in and affecting foreign commerce.

20

before possessing the firearm, the defendant had been convicted

21

of a felony, a crime punishable by imprisonment for more than a

22

year.

23

And, number two,

A firearm is any weapon designed to or readily

24

convertible to expel a projectile by the act of an explosive.

25

The term includes the frame or receiver of any such weapon or

Case 3:18-cr-00045-BJD-JRK Document 96 Filed 04/14/19 Page 76 of 97 PageID 773

VOLUME II- 76

USA v WALKER
1
2
3
4

any firearm muffler or silencer.
The term "foreign commerce" includes the movement of
a firearm between the United States and any foreign country.
It is not necessary for the Government to prove that

5

the defendant knew the firearm had moved between the United

6

States and any foreign country, only that the firearm did, in

7

fact, move between the United States and any foreign country.

8
9
10
11
12
13

The law recognizes several kinds of possession.

A

person may have actual possession, constructive possession,
sole possession, or joint possession.
Actual possession of a thing occurs if a person
knowingly has direct physical control of it.
Constructive possession of a thing occurs if a person

14

does not have actual possession of it, but has both the power

15

and the intention to take control over it.

16
17
18
19
20
21
22

Sole possession of a thing occurs if a person is the
only one who possesses it.
Joint possession of a thing occurs if two or more
people share possession of it.
The term "possession" includes actual, constructive,
sole, and joint possession.
When you get to the jury room, choose one of your

23

members to act as a foreperson.

24

your deliberations and will speak for you in court.

25

A verdict form has been prepared for your

The foreperson will direct

Appendix E

Judgment on Remand from Eleventh Circuit App.

Case 3:18-cr-00045-BJD-JRK Document 105 Filed 01/24/20 Page 1 of 5 PageID 820

Case 3:18-cr-00045-BJD-JRK Document 105 Filed 01/24/20 Page 2 of 5 PageID 821

Case 3:18-cr-00045-BJD-JRK Document 105 Filed 01/24/20 Page 3 of 5 PageID 822

Case 3:18-cr-00045-BJD-JRK Document 105 Filed 01/24/20 Page 4 of 5 PageID 823

Case 3:18-cr-00045-BJD-JRK Document 105 Filed 01/24/20 Page 5 of 5 PageID 824

